                 Department of Veterans Affairs
                 Office of Inspector General



                   Office of Healthcare Inspections

Report No. 13-01189-267



             Healthcare Inspection


 Prevention of Legionnaires’ Disease

          in VHA Facilities





August 1, 2013

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
                                             Prevention of Legionnaires’ Disease in VHA Facilities



                                 Executive Summary

The VA Office of Inspector General Office of Healthcare Inspections conducted a review
to assess how Veterans Health Administration (VHA) medical facilities manage
prevention of Legionnaires’ Disease (LD) at the request of the VA Secretary, Senator
Robert P. Casey, Jr., Congressman Tim Murphy, and the Chairmen and Ranking
Members of the House Committee on Veterans’ Affairs and the Senate Committee on
Veterans’ Affairs.

VHA Directive 2008-010, Prevention of Legionella Disease, outlines specific measures
that VA facilities should follow to monitor and reduce Legionella in the water distribution
system. We found that all facilities had written plans addressing LD management
locally, but compliance with the directive was variable. We found that facilities did not
consistently document their annual LD evaluations; conduct an appropriate risk
assessment; or confirm proper functioning of municipal monochloramine treatment on a
routine basis. They also did not accurately convey LD testing results to the Infection
Control Committee.

VHA is currently in the process of revising Directive 2008-010. We recommended that
the Under Secretary for Health address the reported compliance issues when revising
the directive. We recommended that the Under Secretary for Health provide a plan that
simplifies implementation of the directive, and that provides guidance, education, and
monitoring of the implementation of the revised Prevention of Legionella Disease
directive when issued.

VHA Directive 2008-010’s risk stratification criteria are based at the facility level and
focus on transplant facilities. We found that most patients were immunosuppressed
from diseases unrelated to transplantations. Immunosuppression is one of several
conditions that place patients at increased risk for contracting Legionella, so an
alternative risk stratification methodology may be more effective in preventing
Legionella. We recommended that the Under Secretary for Health consider re­
evaluation of the current stratification of facilities that focuses on transplant status.

Because management of Legionella and other waterborne diseases requires an
interdisciplinary effort among clinicians, laboratory personnel, engineers, and others, a
national-level committee that provides structure for these interactions would allow
improved communication among the different departments. We recommended that the
Under Secretary for Health institute a national-level water safety committee that will
provide expert and technical assistance for collaborative decision-making at the local
level in the control and prevention of waterborne disease.




VA Office of Inspector General                                                                   i
                                         Prevention of Legionnaires’ Disease in VHA Facilities


Comments

The Under Secretary for Health concurred with the inspection results (see Appendix A
pages 24–28, for the full text of his comments). We will follow up on the planned
actions until they are completed.




                                                    JOHN D. DAIGH, JR., M.D.
                                                   Assistant Inspector General for
                                                     Healthcare Inspections




VA Office of Inspector General                                                               ii
                                                               Prevention of Legionnaires’ Disease in VHA Facilities



                                                     Purpose

The VA Office of Inspector General (OIG) Office of Healthcare Inspections (OHI)
conducted a review to assess how Veterans Health Administration (VHA) medical
facilities manage prevention of Legionnaires’ disease (LD) at the request of the VA
Secretary, Senator Robert P. Casey, Jr., Congressman Tim Murphy, and the Chairmen
and Ranking Members of the House Committee on Veterans’ Affairs and the Senate
Committee on Veterans’ Affairs. A report that evaluated their concerns regarding VA
Pittsburgh Healthcare System’s maintenance of its LD prevention system was issued in
April 2013. Additional questions regarding mitigation of risk at other VHA hospitals are
addressed in this report.

                                                 Background

Legionella and Legionellosis

As noted in the recent OIG report, Legionnaires’ Disease at the VA Pittsburgh
Healthcare System, No. 13-00994-180, April 23, 2013, infections caused by bacteria of
the genus Legionella have been recognized since the outbreak at a convention of the
American Legion in Philadelphia in 1976. Legionella is present in natural and artificial
water environments worldwide.1 It can survive temperature ranges of 0-63C (32­
145.4°F) and pH ranges of 5-8.5.2 Legionella is also known to multiply intracellularly
within protozoan hosts and thrive in the biofilm lining water pipes. The hosts and biofilm
provide nutrients for growth as well as additional protection from wider ranges of
temperature or pH, biocides and/or other disinfection efforts. Even when present at
undetectable levels at lower temperatures, it can colonize a water system and
proliferate when temperature, sediment, scale, and supporting microorganisms provide
optimal conditions for growth.3

Although more than 50 species of Legionella have been described, fewer than half of
these cause disease in humans. The most common species, L. pneumophila, includes
at least 16 serogroups. L. pneumophila serogroup 1 is responsible for at least 70% of
proven cases.4
Legionellosis refers to any infection caused by Legionella. LD is a serious and
potentially fatal infection of the lungs and other organs. Pneumonia is the most
common manifestation of LD. Person-to-person transmission of LD does not occur. In
most cases, infection develops when a susceptible person aspirates or inhales

1
  Bartram J, Chartier Y, Lee JV, Pond K, Surman-Lee S, eds. Legionella and the prevention of legionellosis. Geneva: World

Health Organization, 2007.

2
  U.S. Environmental Protection Agency. Legionella: Drinking Water Health Advisory 2001. www.epa.gov. Accessed May 17,

2013.

3
  U.S. Department of Labor. Occupational Safety & Health Administration. OSHA Technical Manual.

Section III: Chapter 7, Legionnaires’ Disease, January 20, 1999.

4
  Edelstein PH, Cianciotto NP. Legionella. In: Mandell GL, et al, eds. Principles and Practice of Infectious Diseases, 7th ed.,

2009. Churchill Livingstone.





VA Office of Inspector General                                                                                               3
                                                               Prevention of Legionnaires’ Disease in VHA Facilities


contaminated water into the lungs. The number of organisms required to cause
infection is unknown.5 Persons at greatest risk are immunocompromised or have
impaired respiratory systems.

Sources of Legionella outbreaks include air conditioning systems, drinking water,
humidifiers, spas, and other sources of contaminated aerosols. Within healthcare
environments, drinking water is the most common source of infection.6

Mitigation of Risk

A. Environmental Controls

Eradication of Legionella in the drinking water is unlikely because it is ubiquitous in the
outdoor environment.7 Low numbers of the organism may enter buildings from public
water sources and colonize pipes despite disinfection treatment by local utility
companies.8,9 Clinical risk is increased when conditions for growth are optimal. The
goal of mitigation is to maintain an acceptably low level of risk and to avoid conditions
that would enhance amplification (rapid rate of growth).

Among available strategies for limiting exposure to Legionella from hospital drinking
water are disinfectants and maintenance of elevated water temperatures. The use of
chemical disinfectants must balance the benefits of controlling bacterial growth with the
potential hazards. Various approaches to disinfection have been employed with some
success, but only the treatment of circulating hot water with copper and silver ions has
been systematically evaluated at multiple sites.10 Water treated with monochloramine
by utilities (as opposed to free chlorine) appears to confer a reduced risk of LD.11

Disinfection may be monitored by testing for the disinfectant level and/or by monitoring
the levels of Legionella bacteria in a hospital’s water system. Experts generally agree
that lower levels of Legionella in the water will decrease the risk of disease despite the


5
   Edelstein et al.

6
  Lin YE, Stout JE, Yu VL. Prevention of hospital-acquired legionellosis. Curr Opin Infect Dis. 2011;24:350-6.

7
  ASHRAE Technology Council. Position Document on Legionellosis. Approved, June 25, 1998; Reaffirmed January 25, 2012.

8
  Environmental Health Division, Vermont Department of Health. Public Health Review of Monochloramine. October 2012.

Water is treated at local treatment plants (primary disinfection) using various filtration and/or chemical methods. After water

leaves the plant, secondary disinfection may be accomplished with chlorine, chlorine dioxide or monochloramine (addition of

ammonia to free chlorine in water). www.healthvermont.gov. Accessed May 24, 2013.

9
  US EPA. Water utility companies in the US treat almost 34 billion gallons of water every day. In the US and Canada,

approximately one million miles of pipes or other constructed conveyance (enough to circle the globe 40 times) carry water to

consumers. www.epa.gov. Accessed May 17, 2013

10
   Lin YE, Stout JE, Yu VL. Controlling Legionella in hospital drinking water: an evidence-based review of disinfection

methods. Infect Control Hosp Epidemiol. 2011;32:166-73.

11
   Flannery, B. et al. Reducing Legionella Colonization of Water Systems with Monochloramine, Emerging Infectious Diseases

Vol. 12, No. 4, April 2006. www.cdc.gov/eid. Accessed May 17, 2013; Kool JL, Bergmire-Sweat D, Butler JC, et al. Hospital

characteristics associated with colonization of water systems by Legionella and risk of nosocomial Legionnaires’ disease: a

cohort study of 15 hospitals. Infect Control Hosp Epidemiol.1999; 20:798-805; Tablan, OE, Anderson LJ, Besser R, Bridges, C,

Hajjeh, R. Guidelines for preventing health-care-associated pneumonia, 2003. Recommendations of CDC and the Healthcare

Infection Control Practices. www.cdc.gov. Accessed 6.2.2013.





VA Office of Inspector General                                                                                               4
                                                                Prevention of Legionnaires’ Disease in VHA Facilities


lack of an established dose–response relationship for Legionella infections.12 The
effectiveness of environmental cultures to assess risk requires strict attention to
procedures for the handling of samples and specialized laboratory testing.

Maintenance of hot water at temperatures sufficient to prevent Legionella growth
throughout a hospital is challenging and requires special care to avoid scalding patients
and staff. Episodic renovations, common in many hospitals, often involve water system
modifications leading to unexpected mixing of hot and cold water as well as areas with
decreased or no circulation of water (dead legs). These connections/disconnections
can lead to dilution of disinfectants and reduced temperatures in one or more locations
within a water system thereby enhancing the growth conditions for Legionella.

B. Clinical Controls

Another component of risk mitigation is careful attention to the clinical presentation of
patients. Clinicians should consider the possibility of LD when patients present with
pneumonia that is severe or that occurs temporally with a hospitalization. When
suspicion is high that Legionella is the causative agent for pneumonia, antibiotic therapy
known to be effective against Legionella should be initiated while awaiting diagnostic
test results.13

Testing for LD in most cases can be accomplished with a simple urine test. However,
the urinary antigen test only detects L. pneumophila serogroup 1, the form of the
pathogen most commonly associated with disease. Cultures from lower respiratory tract
specimens allow identification of other serogroups and species of Legionella.
Additionally, collecting clinical cultures allows for epidemiological matching when
Legionella bacteria are also found in environmental samples.14 However, a good-quality
specimen is often difficult to obtain and may require an invasive procedure.15 Particular
vigilance is required in hospitals caring for vulnerable populations and where LD has
previously been associated with the hospital environment.

Legionnaires’ Disease in VHA

A. VHA Directive 2008-010, Prevention of Legionella Disease

VHA convened a multidisciplinary expert working group to address the prevention of
healthcare-associated (HCA) LD at VHA inpatient facilities in 2007. The working group
developed VHA Directive 2008-010, Prevention of Legionella Disease, which requires



12
   Bartram J, Chartier Y, Lee JV, Pond K, Surman-Lee S, eds. Legionella and the prevention of legionellosis. Geneva: World

Health Organization, 2007.

13
    Edelstein PH, Cianciotto NP. Legionella. In: Mandell GL, et al, eds. Principles and Practice of Infectious Diseases, 7th ed.,

2009. Churchill Livingstone.

14
   Mandell LA, Wunderink RG, Anzueto A, et al. Infectious Disease Society of America/American Thoracic Society consensus

guidelines on the management of community-acquired pneumonia in adults. Clin Inf Dis. 2007;44:S27-72.

15
   Edelstein et al.





VA Office of Inspector General                                                                                                 5
                                                                Prevention of Legionnaires’ Disease in VHA Facilities


that each inpatient facility implement an annual evaluation for LD in accordance with a
written plan.16

Evaluation of the risk of LD involves coordination of multiple services and departments.
Clinicians must be knowledgeable about the diagnosis and treatment of the disease
process, and laboratory personnel must be appropriately trained. Diagnostic services
must be available for the testing and reporting of results. Facility/engineering personnel
who are knowledgeable must be available to maintain the water system appropriately,
and an infection control/prevention committee (ICC) or equivalent must have expertise
and be available to develop an Action Plan when an Action Plan is necessary. 17 The
ICC or equivalent must record the annual evaluation along with summaries of the
laboratory and facility/engineering department reports in the committee’s meeting
minutes.18

The expert working group determined that risk evaluation would be stratified according
to the following facility classifications: VHA-designated Transplant Center, immediate
post-transplant centers (facilities who care for at least 5 patients within 3 months of the
transplant procedure), acute care (non-transplant) facilities, and Community Living
Centers (CLC--formally known as Nursing Home Care Units) not physically housed
within an acute care facility building. Two algorithms were developed to guide facility
annual evaluations—one for the transplant and post-transplant facilities and one for the
acute care facilities and CLCs.

Epidemiologically-Linked HCA LD

Both algorithms require that each facility ascertain whether there has been a history of
epidemiologically-linked HCA LD. Epidemiologically-linked refers to the association of a
suspected HCA LD case with exposure to Legionella at the facility. Such cases include,
but are not limited to, those that are temporally associated (10 or more days of
continuous inpatient care prior to onset of illness) and those that are environmentally
associated (that is, when pathogenic Legionella has been isolated from the facility
environment). Centers with a history of epidemiologically-linked HCA LD must initiate
an Action Plan to reduce the risk of Legionella exposure to patients. Monitoring of the
Action Plan must occur on a routine basis and revisions made as necessary.




16
     VHA Directive 2008-010. Prevention of Legionella Disease, February 11, 2008.
17
   An Action Plan is implemented when a facility has a history of epidemiologically-linked HCA LD, or when
indicated in routine assessments by positive clinical screening or positive environmental samples that exceed the
facility’s threshold. The annual evaluation plan is conducted on a routine basis (yearly) to assess the facility’s level
of risk.
18
   VHA Directive 2008-010 identifies specific annual reporting requirements to the ICC. Laboratory personnel must report the
number of urinary antigen tests and clinical cultures ordered for LD, number of persons with positive results, and the results of
any environment testing. Facility management/engineering departments must provide a report on water system maintenance and
monitoring as well as any mitigation actions taken.




VA Office of Inspector General                                                                                                 6
                                                               Prevention of Legionnaires’ Disease in VHA Facilities


Transplant and Post-Transplant Centers

For transplant and post-transplant centers without a history of epidemiologically-linked
HCA LD, testing for Legionella in the water distribution system is completed twice a
year. At least 10 distal sites (points at which patients come into contact with the water
system) must be tested on each occasion. Positive results must be reported to the ICC
or equivalent. Historically, a 30% positivity rate of distal sites was considered a
threshold level for implementation of an Action Plan19 despite the lack of a definitive
dose-response relationship between positive cultures and disease.20 Transplant/post­
transplant centers with a history of epidemiologically-linked HCA-LD and those with the
requisite number of positive sites showing serogroup 1 organisms, must test all patients
with HCA pneumonia (not just transplant patients) using the urinary antigen test. If the
distal water sites are positive with another type of Legionella organism, the facility must
obtain respiratory tract specimens from transplant patients with HCA pneumonia.

Acute Care Facilities and Community Living Centers

The annual evaluation of risk for acute care facilities and CLCs without a history of
epidemiologically-linked HCA LD includes an assessment of the facility’s water source.
If the water source is treated with monochloramine, the facility must routinely verify
proper functioning of the monochloramine treatment system with appropriate municipal
officials and maintain a high index of suspicion for LD in patients, but no further action is
required. Acute care facilities and CLCs without monochloramine-treated water must
continue the annual evaluation process by completing a Risk Assessment.

To comply with the annual Risk Assessment requirement, acute care facilities and CLCs
may elect one of two options--environment testing or clinical screening. Environmental
testing (sampling of 10 distal sites) is conducted once a year for these facilities rather
than twice a year which is required for transplant and post-transplant centers. Clinical
screening involves the testing of at least 10 patients with HCA pneumonia for Legionella
using urinary antigen testing. Not all acute care facilities and CLCs meet the criteria for
clinical screening as not all facilities routinely identify patients with HCA pneumonia or
treat 10 HCA pneumonia patients per year. For those facilities, environmental testing is
the only available option.

If the facility-designated threshold level for action is exceeded while conducting
environmental testing, the ICC must institute an Action Plan to reduce Legionella in the
water. If an HCA pneumonia patient is found to be positive for LD, the ICC must review
the case to assess if there is epidemiologically-linked disease.

B.	 VHA Directive 2009-009, Domestic Hot Water Temperature Limits for Legionella
    Prevention and Scald Control


19
   Allen JG, Myatt TA, MacIntosh DL, et al. Assessing risk of health care-associated Legionnaires’ disease from environmental

sampling: the limits of using a strict percent positivity approach. Am J Infect Control. 2012;40:917-21.

20
   VHA Directive 2008-010 recommends a 30% level but allows facilities to identify a lower local threshold level.





VA Office of Inspector General                                                                                                   7
                                                              Prevention of Legionnaires’ Disease in VHA Facilities


Rapid growth of Legionella is enhanced when water temperatures are between 25C
and 45C (77F and 113F respectively). Therefore, maintaining water temperatures
outside the optimal range for amplification can be an important control measure.
However, the growth of organisms is only inhibited at water temperatures greater than
50°C (122F). At higher temperatures, Legionella is killed at an increasing rate in a
shorter time frame. With a constant water temperature of 50C (122°F), it may take 80­
124 minutes to destroy 90% of a L. pneumophila population, but only 2 minutes at
temperatures of 60ºC (140F). Above 70°C (158F), the pathogen is killed almost
instantly.21

Unfortunately, the higher water temperatures required to inactivate and kill Legionella
fall within the range of scalding temperatures, particularly for patients with compromised
skin integrity. The risk of scalding increases significantly when water temperatures are
47°C (117°F).22 Full thickness burns may occur in adults after 3 minutes exposure to
52°C (125F) water and after 5 seconds exposure to 60°(140F) water. The time frame
for burns in children is shorter (for this example, 2 minutes and 3 seconds
respectively).23

VHA Directive 2009-009 is the most recent iteration of the VHA’s policy to prevent
Legionella proliferation by controlling water temperature without causing scalding or
burn injuries. The directive requires facilities to have a written plan that considers the
risk of Legionella, the risk of scalding related to its patient population, and the particular
characteristics of its water distribution system when determining hot water limits. Water
temperature checks at various sites in the hot water distribution system must be
performed routinely to verify that temperatures are in accordance with facility policy.

C. Remedial Actions

In the Action Plan that is implemented to reduce Legionella in the facility’s water
distribution system, the ICC may propose remediation such as thermal eradication,24
hyperchlorination,25 copper-silver ionization,26 use of chlorine dioxide27 or point of use
filters. While copper-silver ionization and chlorine dioxide can be used for ongoing
mitigation, the effects of thermal eradication and hyperchlorination cannot be indefinitely

21
   Bartram J, Chartier Y, Lee JV, Pond K, Surman-Lee S, eds. Legionella and the prevention of legionellosis. Geneva: World

Health Organization, 2007.

22
   VHA Directive 2009-009.

23
   CEOSH. Directives Requirements. Accessed May 18, 2013.

24
    VHA Directives 2008-010 and 2009-009. Thermal eradication (superheat and flush) requires temporarily increasing water

temperatures to 71-77C (160-170F) and flushing for 30 minutes. Extreme caution must be taken to protect end users during the

superheating process. Legionella may be detectable within 1 - 3 months of treatment.

25
    VHA Directives 2008-010 and 2009-009. Hyperchlorination involves increasing chlorine levels to maintain a higher than

usual level of chlorine in the water (2 mg/L) for at least 2 hours. The system must be flushed thoroughly after the process.

Legionella is only temporarily eradicated .

26
   U.S. Environmental Protection Agency. Legionella: Drinking Water Health Advisory 2001. www.epa.gov. Accessed May 17,

2013. Copper-silver ionization involves the installation of a commercial system that requires routine monitoring of its

components, copper and silver levels, and proper circulation of the water throughout the distribution system.

27
    Lin YE, Stout JE, Yu VL. Controlling Legionella in hospital drinking water: an evidence-based review of disinfection

methods. Infect Control Hosp Epidemiol. 2011;32:166-73. Chlorine dioxide is a gas that is introduced into the water locally.





VA Office of Inspector General                                                                                              8
                                                              Prevention of Legionnaires’ Disease in VHA Facilities


maintained; Legionella may reappear within weeks or months of these temporary
treatments. Point of use filters are suitable for focal eradication but not typically used
for systemic disinfection.

To decrease exposure to potentially contaminated aerosolized water, VHA issued a
prohibition in November 2012 against the use of indoor, open decorative water features
in VHA facilities unless factory-sealed.28 In an additional attempt to reduce droplet
inhalation, some facilities have removed faucet aerators from showerheads located
where patients with a higher risk for LD are housed.29

D. Evaluating Implementation of VHA Directive 2008-010

In 2009, the VHA Infectious Diseases Program Office (IDPO) conducted a
comprehensive survey to assess implementation of VHA Directive 2008-010. Although
86 percent of facilities reported “correct implementation” of guidance for environmental
risk assessments, only 29 percent reported adherence to guidance for clinical risk
assessments.30 To provide additional guidance to assist facilities with implementation
of the 2008 Prevention of Legionella Disease directive, the IDPO disseminated an
Information Sheet in January 2011.

The information sheet clarified a few key components of the directive. Given that the
status of the facility may change over time (for example, an acute care facility could
begin to care for a greater number of post-transplant patients or vice versa), the facility
must evaluate its status each year and modify its annual evaluation plan accordingly.
Similarly, the local water utility company may alter its disinfection method (for example,
terminate the use of monochloramine) which could require a change in the Risk
Assessment selection.

The IDPO Information Sheet also provided guidance related to the clinical screening
risk assessment selection. Facilities that do not screen for HCA pneumonia or do not
typically identify 10 HCA pneumonia cases in the one-year time frame do not meet the
criteria for selecting that option and should elect the environmental water testing risk
assessment option.

                                  Scope and Methodology

In response to VA and Congressional requests that OIG evaluate VHA’s actions to
prevent LD in all facilities, OHI developed an extensive, broad-based questionnaire to

28
   VHA National Leadership Council. Executive Decision Memo: Indoor decorative water features in VHA healthcare facilities.

December 26, 2012.

29
   Tablan, OE, Anderson LJ, Besser R, Bridges, C, Hajjeh, R. Guidelines for preventing health-care-associated pneumonia, 2003.

Recommendations of CDC and the Healthcare Infection Control Practices. www.cdc.gov. Accessed 6.2.2013.

30
  VHA Infectious Diseases Program Office. Report on Implementation of VHA Directive 2008-010 (Prevention of Legionella

Disease) by VHA Facilities, and Associated Risk Assessment Findings and Actions, June 2011.





VA Office of Inspector General                                                                                              9
                                                                Prevention of Legionnaires’ Disease in VHA Facilities


ascertain current practice. The questionnaire was revised after review by infectious
disease and public health experts and sent to each Veterans Integrated Service
Network and VA Medical Center Director. For VA healthcare systems (VAHCS) or
medical centers that consist of two or more campuses or divisions, we requested that a
separate questionnaire be completed for each campus or division. We also requested
that a questionnaire be completed for each CLC not physically housed within an acute
care facility (stand-alone CLC).31 We did not include VA Community Based Outpatient
Clinics, ambulatory care centers or other facilities providing care to outpatients only, or
Mental Health Residential Rehabilitation Treatment Programs (formerly known as
domiciliaries) in our data collection requests.

All responses were submitted online via a questionnaire web link. We also requested a
copy of each facility’s annual LD evaluation plan, policies governing hot water
temperatures, and patient information for veterans diagnosed with LD during FY12.
The total number of VAHCSs and medical centers who were asked to and completed
the questionnaire was 13232. However, VAHCSs and medical centers with multiple
campuses/divisions, and CLCs not physically housed within acute care facilities were
required to submit individual responses; therefore, the number of completed
questionnaires totaled 182.

We reviewed all submitted documents along with the facilities’ responses to the
questionnaire. When necessary, we contacted designated liaisons and conferred with
infectious disease experts to clarify ambiguous points or issues.

Besides the FY12 patient information we requested from the participating facilities, we
independently identified inpatient veteran patients diagnosed with LD in FY12 by ICD-9­
CM code.33 We compared the information from the two data sources and compiled a
list of patients that met our timeframe and diagnosis criteria. We reviewed all relevant
patient records and confirmed the diagnosis of LD, evaluated antibiotic use, and
determined patient outcome.

VHA has designated 14 facilities as transplants centers. However, two of the 14 VHA-
designated facilities have not yet instituted a transplant program and did not care for
more than 5 post-transplant patients in the 3 months after surgery. For the purposes of
this review, we considered them to be acute care centers.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.


31
   See VHA Directive 2008-010.

32
    In addition to medical centers without an inpatient unit, one healthcare system was excluded because its patients were housed

at a Department of Defense facility during FY 12.

33
   ICD-9-CM (International Classification of Diseases – Ninth Revision – Clinical Modification) is a system of assigning codes to

diagnoses and procedures associated with hospital utilization in the United States. The ICD-9-CM code for Legionnaires’

Disease is 482.84.





VA Office of Inspector General                                                                                                10
                                                               Prevention of Legionnaires’ Disease in VHA Facilities



                                                       Results

Issue 1: Compliance with VHA Directives/Executive Decision Memorandum

A. Directive 2008-010, Prevention of Legionella Disease

Written Plan and Annual Appraisal

Each inpatient facility governed by VHA Directive 2008-010 must have a written plan for
the evaluation of LD prevention. The plan is defined as a “document that calls for an
annual appraisal of the considerations and activities a facility needs to implement to
prevent HCA LD”34, and most plans must include a Risk Assessment (see below) to
determine if mitigation is necessary. The directive further states that documentation of
the annual evaluation and risk assessment must be recorded in the Infection Control
Committee (ICC) or equivalent meeting minutes. We equated the “annual appraisal”
reference in the directive’s definition of a written LD plan with the “annual evaluation”
report that must be recorded in meeting minutes.

We requested that facilities submit their current annual evaluation plan along with their
responses to the LD questionnaire. Facilities submitted a variety of documents to
comply with this request. A majority of facilities submitted their local policy or medical
center memorandum (MCM) on Prevention of Legionella Disease.35 Generally, the local
policies adopted the directive language with little modification and did not clearly
indicate whether their facility had a history of HCA LD, whether the facility had cared for
greater than 5 patients within the first 3 months of transplantation, or whether the local
utility company added monochloramine to the facility’s water source.

While we considered the local policies or MCMs to be equivalent to a written plan, VHA
policies and MCMs, are generally in effect for three years after issuance while the LD
evaluation plan requires an annual review. The dates of the submitted local policies or
MCMs ranged from 2009-2013 and did not contain elements of an annual appraisal or
evaluation. We therefore determined that these local policies did not meet the annual
appraisal component of the directive requirement and requested additional documents
that would show evidence of an annual review.

After reviewing documents submitted in response to both requests, we determined that
all facilities submitted written plans addressing actions that should be taken to prevent
LD. However, we did not find evidence of the annual appraisal requirement for FY12 in
33 of 182 responding facilities.




34
   Directive 2008-010.

35
   Other facilities submitted a document(s) that had been presented to leadership or the ICC or equivalent outlining a review of

the written plan currently in place, actions taken during FY12, and recommended actions for FY13. We determined that these

documents included elements of an annual evaluation.





VA Office of Inspector General                                                                                               11
                                                         Prevention of Legionnaires’ Disease in VHA Facilities


Risk Assessment/Action Plan

A risk assessment is a “component of the plan that calls for the collection of
environmental or clinical samples to determine if action to eradicate Legionella in the
water distribution system is necessary.”36          Facilities without a history of
epidemiologically-linked HCA LD that must complete a routine risk assessment are the
following: transplant/immediate post-transplant centers, and acute care facilities and
CLC without monochloramine. Facilities with a history of epidemiologically-linked HCA
LD need to complete an Action Plan.

Facilities with a History of Epidemiologically-Linked HCA LD

Sixteen (including 3 campuses of one VAHCS and 2 campuses of a second VAHCS) of
the 182 responding facilities acknowledged a history of epidemiologically-linked HCA
LD. All four classifications of facilities are represented in this category: 3 transplant
centers, 4 immediate post-transplant centers, 8 acute care facilities, and 1 CLC. These
facilities need to complete an Action Plan that includes environmental testing. For
transplant center and immediate post-transplant center with positive environmental
testing, clinical screening must be performed. The FY12 Action Plan selection(s) of
these facilities and their compliance with VHA Directive 2008-010 guidance are
tabulated below (see Table 1).

                                                 Table 1
                    Facilities with A History of Epidemiologically-Linked HCA LD:
                              FY12 Action Plan Components and Results
     Action Plan
                                            Appropriately                 Appropriately         Appropriately
     Components           Number of
                                             Conducted                     Conducted             Followed
     Selected by           Facilities
                                        Environmental Testing          Clinical Screening         Directive
       Facility
                                                                                                 Guidance
Clinical                        2                    0                           1                   037/2
Screening

Environmental                   10                   4                          NA                   4/10
Testing

Both                            4                    4                           0                   338/4

Total Number of Facilities that Followed Directive Guidance                                          7/16


36
     VHA Directive 2008-010.

37
   Facilities with a history of epidemiologically-linked HCA LD must conduct environmental testing to monitor the

mitigation protocol. Although one of the two facilities appropriately conducted clinical screening, both failed to

conduct appropriate environmental testing to monitor mitigation.

38
   One of the four facilities was a transplant center which had positive environmental testing but did not conduct

clinical screening per Directive guidance.





VA Office of Inspector General                                                                                 12
                                                              Prevention of Legionnaires’ Disease in VHA Facilities


Transplant/Immediate Post-transplant Centers without a History of Epidemiologically-
linked HCA LD

Of the remaining 166 responding facilities without a history of epidemiologically-linked
HCA LD, twenty identified their facilities as VHA-designated transplant centers or
immediate post-transplant centers. Transplant and immediate post-transplant centers
must implement biannual environmental testing. A total of 10 or more distal sites must
be tested on each occasion. The FY12 Risk Assessment selection of these facilities
and their compliance with VHA Directive 2008-010 are tabulated below (see Table 2).

                                               Table 2
                          Transplant and Immediate Post-transplant Centers
                                    without A History of HCA LD:
                            FY12 Risk Assessment Selection and Results

                                                                                  Appropriately              Compliant
        Risk             Number           Appropriately Conducted
                                                                                    Conducted                  with
     Assessment             of             Environmental Testing
                                                                                Clinical Screening           Directive
      Selection          Facilities
                                                                                                             Guidance

Environmental                10                          7                                NA                     7/10

Both                          8                          5                                 0                      5/8

None                          2                         NA                                NA                      0/2

Total Number of Facilities Compliant with Directive Guidance                                                    12/20


Acute Care Facilities and CLCs with Monochloramine without a History of HCA LD

Acute care facilities and CLC with monochloramine in their water that do not have a
history of epidemiologically-linked HCA LD are not required to perform a risk
assessment. We determined that 54 of the remaining 146 responding facilities met
these criteria. However, facilities in this category must routinely verify proper
functioning of the monochloramine treatment system. We found that 13 of the 54
responding facilities (24 percent) did not routinely confirm that the monochloramine was
properly functioning.39

Additionally, at those facilities with monochloramine that are not required to conduct a
risk assessment, clinicians are advised to maintain a high degree of suspicion of LD.
We considered the ordering of urinary antigen testing and/or clinical cultures an
indicator of a clinician’s level of suspicion for LD. We found that, at 3 of the 54


39
   Two facilities and one water utility company reported a 30 day break in monochloramine use; interruption of monochloramine
disinfection may require additional or supplemental facility action to protect their water supply.




VA Office of Inspector General                                                                                           13
                                                                  Prevention of Legionnaires’ Disease in VHA Facilities


responding facilities with monochloramine that were not required to conduct a risk
assessment, no testing for LD was ordered.40

Acute Care Facilities and CLCs without Monochloramine or a History of HCA LD

Acute care facilities and CLCs without monochloramine or a history of HCA LD must
conduct a risk assessment annually. The risk assessment selections of the remaining
92 acute care facilities and CLCs without monochloramine who submitted responses
are tabulated below (see Table 3).

                                               Table 3
                    Acute Care Facilities and CLCs without Monochloramine or
                                        A History of HCA LD:
                          FY12 Risk Assessment Selection and Results
                                              Appropriately                         Appropriately                 Compliant
     Risk                Number
                                               Conducted                             Conducted                      with
  Assessment                of
                                          Environmental Testing                  Clinical Screening               Directive
   Selection             Facilities
                                                                                                                  Guidance
Clinical                     22                         141                                 6                       7/22

Environmental                47                         42                                 NA                        42/47

Both                         15                         13                                  1                       1342/15

None                          8                         NA                                 NA                          0/8

Total Number of Facilities Compliant with Directive Guidance                                                         62/92


In summary, we found that 81 of the 128 responding facilities (63 percent) required to
conduct an action plan or risk assessment completed them as outlined by VHA Directive
2008-010.

Ongoing Mitigation

For routine prevention of Legionella in the water distribution system, the Centers for
Disease Control and Prevention (CDC) recommends maintaining hot water
temperatures as mandated by state law. If state law allows temperatures outside 105­
120°F for hospitals or 95-110°F for nursing home facilities (below optimal temperatures
for controlling Legionella amplification), CDC recommends either periodic increases to
>150°F or chlorination with flush. CDC guidelines further states: “No recommendation

40
   For this determination, we excluded responding facilities that are campuses, divisions or stand-alone CLCs who reported no

testing results because their results were combined with another campus, division or acute care facility.

41
   One facility selected clinical only but in reality, conducted environmental testing.

42
   The one facility that successfully completed the clinical screening was included in the facilities that successfully completed the

environmental testing.





VA Office of Inspector General                                                                                                    14
                                                            Prevention of Legionnaires’ Disease in VHA Facilities


is offered for treating water in the facility’s distribution system with chlorine dioxide,
heavy-metal ions (e.g., copper or silver), monochloramines, ozone, or UV light…” and
considers the use of these additional mitigation measures to be an unresolved issue.43

Approximately one-third of VHA facilities have opted to employ one or more ongoing
mitigation efforts in addition to maintaining hot water temperatures at allowable levels.
The ongoing mitigation methods in use in the VHA system in FY12 are tabulated below.
Because some facilities use multiple mitigation methods, they are included in more than
one category; therefore, the total number of facilities using ongoing mitigation cannot be
calculated by adding the numbers in this table.

                                               Table 4
                            Ongoing Mitigation Methods Reported in FY12
                                 Excluding Water Utility Treatments
                                     Type                                                 Number of Facilities

Chlorine Dioxide
    Chlorine dioxide                                                                                  8
    Chlorine dioxide + other mitigation                                                               3
Total Number of Facilities Using Chlorine Dioxide                                                    11

Copper-silver Ionization
    Copper-silver ionization                                                                         10
    Copper-silver ionization + other mitigation                                                       5
Total Number of Facilities Using Copper-silver Ionization                                            15

Point-of-use Filters
    Point-of-use filters                                                                             1
    Point-of-use filters + other mitigation                                                          7
Total Number of Facilities Using Point-of-use Filters                                                8

Routine Hyperchlorination
    Routine hyperchlorination                                                                         3
    Routine hyperchlorination + other mitigation                                                      7
Total Number of Facilities Using Routine Hyperchlorination                                           10

Routine Thermal Eradication
    Routine thermal eradication                                                                       6
    Routine thermal eradication +other mitigation                                                     7
Total Number of Facilities Using Routine Thermal Eradication                                         13


Other
    Oxidized Chlorine                                                                                1
    Sodium Hypochlorite                                                                              4
Total Number of Facilities Using Other                                                               5

43
   Sehulster LM, Chinn RYW. Guidelines for environmental infection control in health-care facilities. Recommendations from
CDC and the Healthcare Infection Control Practices Advisory Committee (HICPAC). MMWR. June, 6, 2003.




VA Office of Inspector General                                                                                        15
                                                              Prevention of Legionnaires’ Disease in VHA Facilities


Reporting Requirements

VHA Directive 2008-010 identifies specific items that must be reported to the ICC
annually. Laboratory personnel must report the number of urinary antigen tests and
clinical cultures ordered, number of persons with positive results, and the results of any
environment testing. Staff from facility management/engineering departments must
provide a report on water system maintenance and monitoring as well as any mitigation
actions taken. The summaries of these reports must be recorded in the ICC (or
equivalent) meeting minutes.

We requested and reviewed relevant FY11 and FY12 ICC minutes from the 182
responding facilities. In 53 of 182 responding facilities, we found no documentation of
report summaries to the ICC (or equivalent) as required by the directive.44 Additionally,
we found 15 incidences of absent or incorrect reporting of the number of positive LD
test results to the ICC. During follow-up contacts, we learned that some facilities had
misinterpreted the reporting requirement to the ICC or equivalent to apply to patients
with HCA LD rather than all patients with positive results. Submitted responses showed
discrepancies between number of positive test results and number of patients reported
to the ICC.

B.	 VHA Directive 2009-090, Domestic Hot Water Temperature Limits for Legionella
    Prevention and Scald Control

Of the 182 responding facilities, 17145 submitted a hot water temperature policy that
established maximum temperature limits at distal sites, frequency of temperature
checks, and use of anti-scalding measures. The frequency of temperature checks
ranged from continuous (computerized monitoring) to daily, monthly, quarterly and
annually.

C.	 Executive Decision Memorandum

VHA’s Under Secretary for Health signed an Executive Decision Memorandum on
November 26, 2012, that banned indoor, open decorative water features in VHA
facilities due to a concern that transmission of LD could occur despite routine
maintenance. We found that all VHA facilities had complied with this Memorandum.

Issue 2: Diagnostic Testing and Patient Outcomes: An Indicator of Risk

 A. Diagnostic Testing

Our questionnaire was directed to all campuses and divisions of VAHCS and medical
centers as well as CLCs not physically located within an acute care facility for a total of

44
  When necessary, we reviewed parent facility documents for their associated campuses, divisions or stand-alone CLCs’ reports.
45
  When necessary, we reviewed VAHCS or medical center policies that would include geographically separated campuses or
buildings.




VA Office of Inspector General                                                                                            16
                                                              Prevention of Legionnaires’ Disease in VHA Facilities


182 responding facilities. However, diagnostic testing results are reported through the
VAHCS or medical center, not the individual campus, division, or stand-alone CLC.
Therefore, analysis of testing results and patient data, is based on the number of
participating VAHCS and medical centers (132) rather than the total number of
responding facilities (182).

Urinary Antigen Testing

LD cannot generally be distinguished from pneumonia caused by other agents based on
clinical or radiographic evidence. The diagnosis may be confirmed by detection of
specific antigens in the urine, culturing of respiratory secretions or tissues, or a fourfold
rise of antibody titer in the blood over time. The urinary antigen test, which detects
Legionella pneumophila serogroup 1, has become the most frequent test used for
diagnosis of the disease.46

We found that in FY12, clinicians in VHA facilities ordered 15,169 urinary antigen tests.
The distribution of urinary antigen testing by facility is illustrated below in Graph 1.


                                                 Graph 1
                               Legionella Urinary Antigen Testing by Facility
                          90

                          80

                          70
   Number of Facilities




                          60

                          50

                          40

                          30

                          20

                          10

                           0




                                               Number of Tests Performed in FY12




46
   Tablan, OE, Anderson LJ, Besser R, Bridges, C, Hajjeh, R. Guidelines for preventing health-care-associated pneumonia, 2003.
Recommendations of CDC and the Healthcare Infection Control Practices. www.cdc.gov. Accessed 6.8.2013.




VA Office of Inspector General                                                                                            17
                                                            Prevention of Legionnaires’ Disease in VHA Facilities


Clinical Cultures (Respiratory Tract/Tissue Specimens)

While urinary antigen testing only identifies Legionella pneumophila serogroup 1,
respiratory specimen cultures allow identification of other Legionella species and
serogroups.47   Additionally, collecting clinical cultures allows for epidemiological
matching when Legionella bacteria are also found in environmental samples.48

Obstacles to obtaining a usable respiratory tract specimen limit the usefulness of this
method of testing. The patient may be unable to produce an appropriate sputum
specimen which often requires forceful expiration. Early treatment with antibiotics may
destroy a sufficient number of Legionella to make it impossible to identify the pathogen.
Although respiratory tissue specimens can be collected through more invasive
procedures, the risks may outweigh the benefits. Even when adequate specimens are
obtained, Legionella is difficult to culture. VHA Directive 2008-010 requires respiratory
secretion cultures for all transplant patients with HCA pneumonia when environmental
sampling is positive for non-Legionella pneumophila serogroup 1.

We found that in FY12, clinicians in VHA facilities ordered 3,091 respiratory clinical
cultures for Legionella. The distribution of respiratory clinical cultures for Legionella by
facility is illustrated below in Graph 2.


                                                  Graph 2
                                Number of Clinical Cultures for Legionella by
                                                  Facility
                           90
                           80
                           70
     Number of Facilties




                           60
                           50
                           40
                           30
                           20
                           10
                            0




                                              Number of Tests Performed in FY12



47
  Tablan et al.

48
  Mandell LA, Wunderink RG, Anzueto A, et al. Infectious Disease Society of America/American Thoracic Society consensus

guidelines on the management of community-acquired pneumonia in adults. Clin Inf Dis. 2007;44:S27-72.





VA Office of Inspector General                                                                                        18
                                                                  Prevention of Legionnaires’ Disease in VHA Facilities


B. Patient Data

The 132 VAHCS and medical centers identified 112 patients diagnosed with LD in
FY12. We independently identified 173 VA patients diagnosed with LD in FY12 by ICD­
9-CM code (482.84). We determined that 89 of the 173 patients we identified did not
have an acute episode of LD in FY1249 or received treatment for LD outside of the VA
system. We excluded these 89 patients from consideration. Therefore, the list of 173
VA patients we originally identified was reduced to 84 patients.

We combined the 84 patients with the 112 patients identified by the VAHCS and
medical centers. Because these two groups contained 71 patients in common, the
combined group consisted of 125 unique patients. We reviewed the medical care of
these 125 patients. An additional 13 patients were excluded from the combined group:
8 patients were excluded because they were not diagnosed with LD in FY12; 1 was
excluded because his/her LD test was a false positive result; 1 had completed treatment
for LD at a non-VA hospital and was transferred to the VA for management of a
pressure ulcer; 3 were treated as outpatients only and therefore excluded. The
remaining 112 patients50 received treatment for LD as inpatients at VA hospitals.

The vast majority of the 112 patients presented to VA hospitals with signs and
symptoms of pneumonia and according to facility responses to our questionnaire, did
not acquire it as a result of their VHA hospitalization, i.e., the pneumonia was
community-acquired pneumonia (108), not hospital-acquired (4).

We noted that in most cases, clinicians ordered empiric antibiotics effective for treating
Legionella prior to learning the results of clinical laboratory testing. In only 5 cases did
we find that patients were not on antibiotics effective against Legionella prior to their
diagnosis. In the other 107 cases, either patients were on antibiotics for LD prior to their
diagnosis or had been diagnosed prior to admission and were on appropriate antibiotics
at the time of admission or transfer. We found that antibiotics were adjusted after
confirmation of the diagnosis to optimize treatment.

We also observed that in our cohort of 112 patients, only two had undergone
transplants while 25 were either on immunosuppressive medications or
immunosuppressed by end-stage cancer or HIV with abnormal CD4 counts.

Five of the 112 patients reviewed expired within 30 days of the LD diagnosis. Besides
the LD diagnosis, each patient had multiple chronic diseases which likely decreased
resistance to LD. Two had metastatic lung cancer; one had a spinal cord injury, a
severe blood clotting disorder amputation of two limbs, chronic obstructive pulmonary
disease, and a recent history of smoking; another was a 78 year old with chronic


49
     These patients had a past history for LD or were suspected of having LD but had testing that did not confirm the diagnosis.
50
   Coincidentally, the number of patients in the final list was identical to the number of patients identified by the
facilities, but the patients were not the same.




VA Office of Inspector General                                                                                                     19
                                                              Prevention of Legionnaires’ Disease in VHA Facilities


obstructive pulmonary disease and chronic kidney disease; and the last one had insulin
dependent diabetes and chronic kidney disease.

We used ICD-9-CM codes specific for bacterial pneumonia to determine that 8,024
veterans were admitted to a VA hospital with bacterial pneumonia in FY12. However,
other codes may be assigned that do not specifically identify the cause of the
pneumonia. These non-specific codes could include large numbers of patients with
bacterial pneumonias. Using both the specific and non-specific codes for bacterial
pneumonia, we found that 36, 242 patients with any type of bacterial pneumonia were
admitted to VA hospitals in FY12.51 The 112 inpatients with confirmed LD, the majority
of which were community-acquired, represent a small portion of inpatients diagnosed
with bacterial pneumonia in FY12. The distribution of patients with LD by facility is
illustrated below.


                                                   Graph 3
                                 Distribution of Patients with LD by Facility
                            90

                            80

                            70

                            60
     Number of Facilities




                            50

                            40

                            30

                            20

                            10

                             0


                                                  Number of LD Patients in FY12




51
   Bacterial pneumonia was defined as having one of the following ICD-9-CM codes: 481, 482.xx, 483.x, 484.3, and 484.5. The
following codes are used to classify patients with pneumonia and do not require that the cause of the pneumonia be specified:
484.8, 485, and 486.




VA Office of Inspector General                                                                                           20
                                                            Prevention of Legionnaires’ Disease in VHA Facilities


Issue 3. Progress in Mitigating Risk of LD in VHA Facilities

The discovery of legionellosis as a disease entity has been relatively recent. Despite
advances in our knowledge of the pathogen since its original outbreak in 1976, a single,
effective, and proven method of control and eradication of Legionella in water
distribution systems is not yet available. Rather, attempts to prevent the transmission of
LD are currently recommended to occur at as many points as possible along the chain
of transmission.52

Interference with optimal conditions for Legionella growth includes controlling the
ranges of water temperature, pH, available LD nutrients, droplet formation, and system
cleanliness. Altering the water piping system to remove areas, such as dead legs,
where Legionella can grow may also reduce risk.

Should Legionella thrive despite water control methods, exposure to water containing
Legionella is not, in itself, enough to cause disease. The Legionella species must be
one that causes disease and be numerous enough to overwhelm a person’s immune
system.53 The risk of developing disease after exposure also depends on the exposed
person’s health status. According to guidelines co-authored by the Infectious Diseases
Society of America and the American Thoracic Society, “Persons with severe
immunosuppression from organ transplantation or chronic underlying illnesses (e.g.,
hematologic malignancy or end-stage renal disease) are at markedly increased risk for
legionellosis. Persons with diabetes mellitus, chronic lung disease, or non-hematologic
malignancy; those who smoke cigarettes; and the elderly are at moderately increased
risk.”54

Like other healthcare institutions, VHA facilities are sites where persons with lowered
immunity come in contact with large, complex water distribution systems. To reduce the
risk of transmission of LD to its patients, VHA has issued directives that address control
of Legionella in its water supply and how to determine whether Legionella is present in
the water and causing disease. If Legionella is identified, VHA allows the facility, with
its knowledge of the local water supply, patients, and other unique circumstances, to
devise and implement an Action Plan specific to these factors that will reduce Legionella
in its water supply.

As IDPO noted in its 2009 evaluation of Directive 2008-010, implementation of the
directive has been variable. Our review of facility practices shows a similar variability in
compliance with the Prevention of Legionella Disease directive. However, the low
number of patients with confirmed LD pneumonia in FY12, in relation to the number of


52
   ASHRAE Technology Council. Position Document on Legionellosis. Approved, June 25, 1998; Reaffirmed January 25, 2012.
53
   ASHRAE Technology Council. Position Document on Legionellosis. Approved, June 25, 1998; Reaffirmed January 25, 2012.
54
   Lionel A. Mandell, Richard G. Wunderink, Antonio Anzueto, John G. Bartlett,G. Douglas Campbell, Nathan C. Dean,Scott F.
Dowell, Thomas M. File, Jr. Daniel M. Musher, Michael S. Niederman,Antonio Torres, and Cynthia G. Whitney. Infectious
Diseases Society of America/American Thoracic Society Consensus Guidelines on the Management of Community-Acquired
Pneumonia in Adults. Clinical Infectious Diseases 2007; 44:S27–72.




VA Office of Inspector General                                                                                        21
                                                             Prevention of Legionnaires’ Disease in VHA Facilities


patients admitted to VHA facilities with bacterial pneumonia, suggests an overall low
risk of contracting or dying from LD in a VHA facility.

CDC last published guidelines addressing LD in 2003.55 No large-scale studies
researching the effectiveness of different control methods have produced results that
warrant revision of current guidelines.

                                               Conclusions

VHA has issued two directives: Prevention of Legionella Disease (2008-010) and
Domestic Hot Water Temperature Limits for Legionella Prevention and Scald Control
(2009-090). When a 2009 evaluation of VHA Directive 2008-010 revealed variability
with its implementation, additional guidance was disseminated in the form of an
information sheet that provided clarification of specific problem areas. Our review of
facility practices showed a similar variability in compliance with the Prevention of
Legionella Disease directive.

We found that facilities did not consistently document their annual evaluation for risk
related to LD; conduct a risk assessment appropriate to their status; evaluate proper
functioning of municipal monochloramine treatment on a routine basis; and/or
accurately document LD testing results to the ICC or equivalent. During the course of
our review, we learned that VHA is currently revising Directive 2008-010 and Directive
2009-009.

In the records reviewed for this study, we found a much larger number of
immunosuppressed patients unrelated to transplantation than in patients who had
undergone organ transplantation. While we did not have data to calculate the relative
risk for transplant patients versus those with reduced immune function, the large
number of immunosuppressed individuals among those treated for LD suggests that,
although VHA prevention measures would not prevent community-acquired cases,
VHA should examine risk factors other than transplant status when revising the current
Directives. Immunosuppression is only one of several conditions that place patients at
increased risk for contracting Legionella, so an alternative risk stratification methodology
may be more effective in preventing Legionella.

We considered the lack of documentation in the submitted ICC meeting minutes to be
an indicator of a low level of interdepartmental communication regarding test results and
the risk of LD at the local facility. We found little evidence of collaborative decision-
making among the different departments. Because management of Legionella and
other waterborne diseases requires an interdisciplinary effort among clinicians,
laboratory personnel, engineers, and others, a committee that provides structure for
these interactions would allow improved communication among the different

55
   Sehulster LM, Chinn RYW. Guidelines for environmental infection control in health-care facilities. Recommendations from
CDC and the Healthcare Infection Control Practices Advisory Committee (HICPAC). MMWR. June, 6, 2003.




VA Office of Inspector General                                                                                           22
                                            Prevention of Legionnaires’ Disease in VHA Facilities


departments. A national-level committee would be able to provide overarching
assistance for setting policy and offer expert assistance to local facilities when issues
related to waterborne diseases arise.

                                 Recommendations

1. We recommended that the Under Secretary for Health address the reported
compliance issues when revising the current Prevention of Legionella Disease directive.

2. We recommended that the Under Secretary for Health provide a plan that simplifies
implementation of the directive, and that provides guidance, education, and monitoring
of the implementation of the revised Prevention of Legionella Disease directive when
issued.

3. We recommended that the Under Secretary for Health consider re-evaluation of the
current stratification plan that identifies risk of Legionnaires’ disease based on
transplant status.

4. We recommended that the Under Secretary for Health institute a national-level water
safety committee that will provide expert and technical assistance for collaborative
decision-making at the local level in the control and prevention of waterborne disease.




VA Office of Inspector General                                                                23
                                              Prevention of Legionnaires’ Disease in VHA Facilities
                                                                                      Appendix A
               Under Secretary for Health Comments


               Department of
               Veterans Affairs                               Memorandum

    Date:      July 22, 2013

   From:       Under Secretary for Health (10)

 Subject:	     OIG Healthcare Inspection Draft Report, Prevention of Legionnaires’
               Disease in VHA Facilities (Project No. 2013-01189-HI-0362)
               (VAIG7376736)

       To:     Assistant Inspector General for Healthcare Inspections (54)


               1.	 I have reviewed the draft report and concur with the report’s
                   recommendations. Attached is the Veterans Health
                   Administration’s corrective action plan for the report’s
                   recommendations.

               2.	 Thank you for the opportunity to review the draft report. If you
                   have any questions, please contact Karen Rasmussen, Acting
                   Director, Management Review Service (10AR) at (202) 462­
                   6643.



               //original signed//

               Robert A. Petzel, M.D.

               Attachment




VA Office of Inspector General                                                                  24
                                              Prevention of Legionnaires’ Disease in VHA Facilities


                           Under Secretary for Health Comments
                           to Office of Inspector General’s Report


The following comments are submitted in response to the recommendations in
the Office of Inspector General’s report:

OIG Recommendations

Recommendation 1. We recommended that the Under Secretary for Health address
the reported compliance issues when revising the current Prevention of Legionella
Disease directive.

Concur

Target date for completion: June 27, 2014

Facility response: VHA concurs with revising the current policy on Prevention of
Legionella Disease to address the reported compliance issues. Currently, the Director
of VHA National Infectious Diseases Service (NIDS) and the Deputy Director of VHA
Office of Capital Asset Management, Engineering, and Support (OCAMES) are co­
chairing a multidisciplinary Legionella Expert Work Group. Membership consists of
representatives from infectious diseases, infection prevention and control, healthcare
engineering, construction and facilities management, public health, occupational safety
and health, pathology and laboratory medicine, the Office of the Medical Inspector, and
medical center leadership. This workgroup is currently reviewing VHA’s Legionella
prevention policies, scientific literature, and clinical evidence to inform new policy
development or revisions to current policy. This workgroup will consider policy
standards for addressing reported compliance issues when proposing revisions to
current policy or as part of new policy, whichever is more appropriate.

Completion of this action will be when the draft revised policy is submitted to the Office
of Regulatory and Administrative Affairs (10B4), at which time the draft document will
have received concurrence by VA Office of General Counsel and the document will
undergo final formatting in preparation for concurrence by the Under Secretary for
Health.


Recommendation 2. We recommended that the Under Secretary for Health provide a
plan that simplifies implementation of the directive, and that provides guidance,
education, and monitoring of the implementation of the revised Prevention of Legionella
Disease directive when issued.

Concur

Target date for completion: June 27, 2014




VA Office of Inspector General                                                                  25
                                              Prevention of Legionnaires’ Disease in VHA Facilities


Facility response: VHA concurs with providing an implementation plan for revised policy
that will simplify implementation of the directive, provide guidance and education, and
monitoring for implementation of the revised Prevention of Legionella Disease directive
once published.

The National Infectious Diseases Service (NIDS) submitted educational requests for two
meetings to discuss the revised Prevention of Legionella Disease directive.
    The “Water Safety in Healthcare” workshop serves as the national kickoff for a
      focused effort in VHA to prioritize water safety in the healthcare setting.
   	 The “Implementation of Updated Prevention of Legionella Directive” train­
      the-trainer workshop provides implementation strategies for the Directive.
      Workshop participants will work on creating local plans in accordance with the
      revised directive for Legionella risk analysis, building water distribution
      assessment, and engineering controls for the prevention of healthcare­
      associated Legionnaires’ disease.
   	 The request for approval of the “Water Safety in Healthcare” workshop and the
      “Implementation of Updated Prevention of Legionella Directive” train-the­
      trainer workshop are pending. If approved in Fiscal Year 2013, VHA expects to
      conduct the workshops during Fiscal Year 2014.

Additional educational efforts include teleconferences with the Networks and VHA
Medical Centers to provide education and guidance on the revised Legionella
prevention policy.

In order to monitor implementation with, and provide guidance and education on, the
revised Prevention of Legionella Disease directive, NIDS and OCAMES will be working
together to establish a VHA Central Office Water Safety Work Group. See response to
Recommendation 4 for additional information.

Completion of this action plan will be:
    documentation of either VHA approval or refusal of one or both of the proposed
      workshops; and
    evidence that teleconferences with Networks and Medical Centers have been
      conducted; and
    minutes from VHA Central Office Water Safety Work Group meetings or
      evidence of outcomes related to this work group’s collaborative efforts related to
      monitoring implementation, and providing guidance and education on the revised
      directive
   	 The implementation plan containing elements established in the

      recommendation.



Recommendation 3. We recommended that the Under Secretary for Health consider
re-evaluation of the current stratification plan that identifies risk of Legionnaires’ disease
based on transplant status.



VA Office of Inspector General                                                                  26
                                              Prevention of Legionnaires’ Disease in VHA Facilities


Concur

Target date for completion: November 31, 2013

Facility response: VHA concurs with re-evaluating current algorithms defined in VHA
Directive 2008-010 that stratify risk of Legionnaires’ disease (LD) based on transplant
status.

Risk stratification algorithms in current VHA policy were based on assumptions and
recommendations in the Department of Veterans Affairs Office of Inspector General
(OIG) 2007 Report, “Assessment of Legionnaire’s Disease Risk in Veterans Health
Administration Facilities” (Report No. 07-00029-151). The Report stratified transplant
centers with no explicit LD prevention plan in place as being higher risk; OIG
recommended written plans at such facilities. This risk stratification aligns with CDC’s
2003 guidance on prevention of healthcare-associated LD. CDC’s guidance
differentiates prevention measures for facilities that perform hematopoietic stem-cell
and/or solid organ transplants from those facilities that do not. Accordingly, VHA
Directive 2008-010 used transplant center status (or facilities managed a number of
patients in the post-transplant surgery period) as a main factor in risk stratification.
Notably, CDC has not updated its guidelines for prevention of healthcare-associated
pneumonia since 2003.

The Legionella Expert Work Group (refer to Recommendation 1) is currently reviewing
VHA’s Legionella prevention policies, scientific literature, and clinical evidence to inform
new policy development or revisions to current policy. This workgroup will consider re­
evaluation of the current stratification plan that identifies risk of LD based on transplant
status.

Completion of this action will be when the Legionella Expert Work Group provides
recommendations regarding re-evaluation of the risk stratification algorithms to the
policy drafting group or the Deputy Under Secretary for Health for Policy and Services
(10P4).


Recommendation 4. We recommended that the Under Secretary for Health institute a
national-level water safety committee that will provide expert and technical assistance
for collaborative decision-making at the local level in the control and prevention of
waterborne disease.

Concur

Target date for completion: June 27, 2014

Facility response: VHA concurs that a VHA Central Office Water Safety Work Group
(termed “committee” in the recommendation) be established to provide expert and
technical assistance to VHA Medical Centers for the control and prevention of
waterborne diseases.


VA Office of Inspector General                                                                  27
                                           Prevention of Legionnaires’ Disease in VHA Facilities




The Director, VHA National Infectious Diseases Service (NIDS) and the Deputy
Director, VHA Office of Capital Asset Management, Engineering, and Support
(OCAMES) currently chair a Legionella Expert Work Group (refer to recommendation
1). Over the past several months, NIDS and OCAMES have established a collaborative
working relationship with respect to Legionella prevention and control. The Water
Safety Work Group will provide expert and technical assistance for collaborative
decision-making at the local level in the control and prevention of waterborne disease.

This action plan is complete upon documentation of the following:
   1.	 The approved and signed charge for the central office Water Safety Work Group;
       and
   2.	 Minutes from at least three meetings where the Water Safety Work Group has
       addressed the elements of this recommendation.




VA Office of Inspector General                                                               28
                                                            Prevention of Legionnaires’ Disease in VHA Facilities


                              APPENDIX B: Table and Graph Data
                                                                                                 56
Table 1: Facilities with a History of Epidemiologically-Linked HCA LD

Compliant with Directive Guidance for Environmental/Clinical Testing Related to
FY12 Action Plans

 Aleda E. Lutz VAMC, Saginaw, MI

 Albany VAMC

 Bay Pines VA HCS

 VA Greater Los Angeles HCS

 VA Maine Healthcare System

 VA Salt Lake City HCS

 VA Western New York HCS, Buffalo, NY


Non-Compliant with Directive Guidance for Environmental/Clinical Testing
Related to FY12 Action Plans

Canandaigua VAMC
Central Texas Veterans HCS, Olin E Teague Veterans' Center, Temple, TX
Sioux Falls VAMC,
VA Palo Alto HCS, Menlo Park, CA
VA Palo Alto HCS, Palo Alto, CA
VA Pittsburgh HCS, H. John Heinz III Progressive Care Center, Pittsburgh, PA
VA Pittsburgh HCS, Highland Drive Division, Pittsburgh, PA
VA Pittsburgh HCS, University Drive Division, Pittsburgh, PA
VA Puget Sound HCS

Table 2. Transplant/Immediate Post-Transplant Facilities without a History of
Epidemiologically-Linked HCA LD

Compliant with Directive when FY12 Risk Assessment Conducted

 G.V. (Sonny) Montgomery VAMC, Jackson, MS

 Louis Stokes VAMC, Cleveland, OH

 Minneapolis VAMC

 Portland VAMC, Vancouver, WA

 Robert J. Dole VA Medical and Regional Office Center, Wichita, KS

 South Texas Veterans HCS, San Antonio, TX

 Tennessee Valley HCS, Alvin C. York, Murfreesboro, TN

 Tennessee Valley HCS, Nashville, TN

56
     Facilities appearing more than once had to submit separate plans per Directive 2008-010.




VA Office of Inspector General                                                                                29
                                          Prevention of Legionnaires’ Disease in VHA Facilities


 VA Connecticut HCS, West Haven Campus, West Haven, CT

 VA Loma Linda HCS, Loma Linda, CA

 VA Palo Alto HCS, Livermore, CA

 William S. Middleton Memorial Veterans Hospital, Madison, WI


Non-compliant with Directive when FY12 Risk Assessment Conducted

Asheville VAMC
Birmingham VAMC
Hunter Holmes McGuire VAMC, Richmond, VA
Iowa City VAMC
Memphis VAMC
Michael E. DeBakey VAMC, Houston, TX
Portland VAMC, Portland, OR
St. Louis VAMC, John Cochran Division


Table 3. Acute Care Facilities and CLCs without Monochloramine and without a
History of Epidemiologically-Linked HCA LD

Compliant with Directive when FY12 Risk Assessment Conducted

 Alexandria VAMC, Pineville, LA

 Amarillo VA HCS

 Baltimore VA Rehabilitation and Extended Care Center

 Bath VAMC (CLC)

 Captain James A. Lovell Federal Health Care Center, North Chicago, IL57

 Captain James A. Lovell Federal Health Care Center, North Chicago, IL

 Captain James A. Lovell Federal Health Care Center, North Chicago, IL

 Captain James A. Lovell Federal Health Care Center, North Chicago, IL

 Central Alabama Veterans HCS, East Campus, Tuskegee, AL

 Cheyenne VA Medical

 Chillicothe VAMC

 Cincinnati VAMC (Acute Care)

 Cincinnati VAMC (CLC)

 Coatesville VAMC

 Dayton VAMC (Acute Care)

 Dayton VAMC (CLC)

 Edward Hines Jr. VA Hospital (Acute Care)

 Edward Hines Jr. VA Hospital (CLC)


57
     See footnote 56.




VA Office of Inspector General                                                              30
                                        Prevention of Legionnaires’ Disease in VHA Facilities


 Erie VAMC
 Huntington VAMC
 Jack C. Montgomery VAMC, Muskogee, OK
 James J. Peters VAMC, Bronx, NY
 Jesse Brown VAMC
 John D. Dingell VAMC, Detroit, MI
 Kerrville VAMC
 Martinsburg VAMC
 Mountain Home VAMC (Acute Care)
 Mountain Home VAMC, Mountain Home (CLC)
 New Mexico VA HCS
 Northern Arizona VA HCS, Prescott, AZ
 Northport VAMC
 Orlando VAMC
 Oscar G. Johnson VAMC, Iron Mountain, MI
 Phoenix VA HCS
 Sheridan VAMC
 Syracuse VAMC
 Tomah VAMC (Acute Care)
 Tomah VAMC (CLC)
 Tuscaloosa VAMC
 VA Boston HCS, Brockton Campus
 VA Central Western Massachusetts Healthcare System, Leeds, MA
 VA Greater Los Angeles HCS
 VA Greater Los Angeles HCS
 VA Gulf Coast Veterans HCS, Biloxi, MS
 VA Hudson Valley HCS, Castle Point Campus, Castle Point, NY
 VA Hudson Valley HCS, Franklin Delano Roosevelt, Montrose, NY
 VA Maryland HCS, Baltimore, MD
 VA Maryland HCS, Perry Point VAMC, Perry Point, MD
 VA Northern California HCS, Mather, CA
 VA Northern Indiana HCS, Marion, IN
 VA NY Harbor HCS, Brooklyn Campus
 VA NY Harbor HCS, Manhattan Campus
 VA NY Harbor HCS, St. Albans Community Living Center, Jamaica, NY
 VA Roseburg HCS (Acute Care)
 VA Roseburg HCS (CLC)
 VA Western New York HCS, Batavia, NY
 Veterans HCS of the Ozarks, Fayetteville, AR
 W.G. (Bill) Hefner VAMC, Salisbury, NC



VA Office of Inspector General                                                            31
                                         Prevention of Legionnaires’ Disease in VHA Facilities


 West Palm Beach VAMC

 West Texas VA HCS, Big Spring, TX

 Wilkes-Barre VAMC

 Wilmington VAMC


Non-compliant with Directive when FY12 Risk Assessment Conducted

 Asheville VAMC

 Atlanta VAMC

 Bath VAMC (Acute Care)

 Battle Creek VAMC, Battle Creek, MI

 Beckley VAMC

 Boise VAMC

 C. Arkansas Veterans HCS, Eugene J. Towbin Healthcare Ctr., N. Little Rock, AR
 C. Arkansas Veterans HCS, John L. McClellan Memorial Veterans Hospital, Little
 Rock, AR
 Carl Vinson VAMC, Dublin, GA
 Central Alabama Veterans HCS, West Campus, Montgomery, AL
 Charlie Norwood VAMC, Augusta, GA
 Charlie Norwood VAMC, Uptown Division, Augusta, GA
 John J. Pershing VAMC, Poplar Bluff, MO
 Louis A. Johnson VAMC, Clarksburg, WV
 Providence VAMC
 Southern Arizona VA HCS, Tucson, AZ
 Spokane VAMC
 VA Black Hills HCS - Hot Springs Campus, Hot Springs, SD
 VA Black Hills HCS - Fort Meade Campus, Fort Meade, SD
 VA Central California HCS, Fresno, CA (Acute Care)
 VA Central California HCS, Fresno, CA (CLC)
 VA Central Iowa HCS (Acute Care)
 VA Central Iowa HCS (CLC)
 VA Montana HCS, Fort Harrison, MT
 VA Montana HCS, Miles City, MT
 VA New Jersey HCS, East Orange Campus
 VA Sierra Nevada HCS
 Washington DC VAMC
 West Palm Beach VAMC
 White River Junction VAMC

Graph 1: Legionella Urinary Antigen Testing in FY12 Reported By Medical
Centers and Health Care Systems




VA Office of Inspector General                                                             32
                                          Prevention of Legionnaires’ Disease in VHA Facilities


Medical Centers and Health Care Systems Performing No Legionella Urinary
Antigen Testing

 Central Alabama Veterans HCS

 John J. Pershing VAMC

 Manchester VAMC

 San Francisco VAMC

 Sheridan VAMC

 St. Cloud VAMC

 VA Central Western Massachusetts Healthcare System

 West Texas VA HCS


 Medical Centers and Health Care Systems Performing 1 - 100 Legionella Urinary
 Antigen Tests

 Aleda E. Lutz VAMC

 Alexandria VAMC

 Amarillo VA HCS

 Asheville VAMC

 Atlanta VAMC

 Bath VAMC

 Battle Creek VAMC

 Bay Pines VA HCS

 Beckley VAMC

 Birmingham VAMC

 Butler VAMC

 Canandaigua VAMC

 Captain James A. Lovell Federal Health Care Center

 Carl Vinson VAMC

 Charlie Norwood VAMC

 Cheyenne VA Medical

 Chillicothe VAMC

 Clement J. Zablocki VAMC

 Coatesville VAMC

 Dayton VAMC

 Edith Nourse Rogers Memorial Veterans Hospital

 Erie VAMC

 Fargo VAMC

 Fayetteville VAMC

 G.V. (Sonny) Montgomery VAMC

 Grand Junction VAMC

 Hampton VAMC

 Hunter Holmes McGuire VAMC




VA Office of Inspector General                                                              33
                                          Prevention of Legionnaires’ Disease in VHA Facilities


 Huntington VAMC
 Jack C. Montgomery VAMC
 James E. Van Zandt VAMC
 Kansas City VAMC
 Lebanon VAMC
 Louis A. Johnson VAMC
 Marion VAMC
 Martinsburg VAMC
 New Mexico VA HCS
 Northern Arizona VA HCS
 Orlando VAMC
 Oscar G. Johnson VAMC
 Overton Brooks VAMC
 Philadelphia VAMC
 Phoenix VA HCS
 Ralph H. Johnson VAMC
 Robert J. Dole VA Medical and Regional Office Center
 Salem VAMC
 Southern Arizona VA HCS
 Spokane VAMC
 St. Louis VAMC
 Syracuse VAMC
 Tennessee Valley HCS
 Tomah VAMC
 Tuscaloosa VAMC
 VA Black Hills HCS
 VA Caribbean HCS
 VA Eastern Colorado HCS
 VA Eastern Kansas HCS, Colmery-O'Neil VAMC
 VA Greater Los Angeles HCS
 VA Gulf Coast Veterans HCS
 VA Hudson Valley HCS
 VA Loma Linda HCS
 VA Maine Healthcare System - Togus VAMC
 VA Montana HCS
 VA Nebraska Western Iowa HCS
 VA North Texas HCS
 VA Northern California HCS
 VA Northern Indiana HCS
 VA Pacific Islands HCS
 VA Roseburg HCS
 VA Sierra Nevada HCS
 Veterans HCS of the Ozarks


VA Office of Inspector General                                                              34
                                      Prevention of Legionnaires’ Disease in VHA Facilities


 W.G. (Bill) Hefner VAMC
 West Palm Beach VAMC
 White River Junction VAMC
 Wilkes-Barre VAMC
 Wilmington VAMC
 Wm. Jennings Bryan Dorn VAMC

 Medical Centers and Health Care Systems Performing 101-200 Legionella Urinary
 Antigen Tests

 Cincinnati VAMC
 Edward Hines Jr. VA Hospital
 Harry S. Truman Memorial
 Iowa City VAMC
 James J. Peters VAMC
 Jesse Brown VAMC
 John D. Dingell VAMC
 Lexington VAMC
 Miami VA HCS
 NF/SGVHS, Malcom Randall VAMC
 Providence VAMC
 VA Ann Arbor HCS
 VA Boston HCS
 VA Central California HCS
 VA Connecticut HCS
 VA Long Beach HCS
 VA Maryland HCS
 VA Palo Alto HCS
 VA Puget Sound HCS
 VA San Diego HCS

 Medical Centers and Health Care Systems Performing 201-300 Legionella Urinary
 Antigen Tests

 Albany VAMC, Samuel S. Stratton
 Boise VAMC
 Louis Stokes VAMC
 Memphis VAMC
 Minneapolis VAMC
 Northport VAMC
 Oklahoma City VAMC
 Portland VAMC
 Richard L. Roudebush VAMC



VA Office of Inspector General                                                          35
                                          Prevention of Legionnaires’ Disease in VHA Facilities


 Sioux Falls VAMC
 South Texas Veterans HCS
 VA Central Iowa HCS
 VA Illiana HCS
 VA New Jersey HCS
 VA NY Harbor HCS
 VA Salt Lake City HCS
 Washington DC VAMC
 William S. Middleton Memorial Veterans Hospital

 Medical Centers and Health Care Systems Performing 301 - 400 Legionella
 Urinary Antigen Tests

 C. Arkansas Veterans HCS, John L. McClellan Memorial Veterans Hospital
 Central Texas Veterans HCS, Olin E Teague Veterans' Center
 Durham VAMC

 Medical Centers and Health Care Systems Performing 401 - 500 Legionella
 Urinary Antigen Tests

 Mountain Home VAMC

 Medical Centers and Health Care Systems Performing 501 - 600 Legionella
 Urinary Antigen Tests

 Louisville VAMC
 VA Western New York HCS

 Medical Centers and Health Care Systems Performing 601 - 700 Legionella
 Urinary Antigen Tests

 Michael E. DeBakey VAMC

 Medical Centers and Health Care Systems Performing 801 - 900 Legionella
 Urinary Antigen Tests

 James A. Haley Veterans' Hospital

 Medical Centers and Health Care Systems Performing 1201 - 1300 Legionella
 Urinary Antigen Tests

 VA Pittsburgh HCS




VA Office of Inspector General                                                              36
                                         Prevention of Legionnaires’ Disease in VHA Facilities


Graph 2: Respiratory Clinical Culture in FY 12 Reported By Medical Center and
Health Care System

 Medical Centers and Health Care Systems that Performed No Respiratory Clinical
 Cultures for LD

 Aleda E. Lutz VAMC

 Amarillo VA HCS

 Atlanta VAMC

 Bath VAMC

 Bay Pines VA HCS

 Beckley VAMC

 Boise VAMC

 Butler VAMC

 C. Arkansas Veterans HCS, John L. McClellan Memorial Veterans Hospital

 Canandaigua VAMC

 Captain James A. Lovell Federal Health Care Center

 Carl Vinson VAMC

 Central Alabama Veterans HCS

 Central Texas Veterans HCS, Olin E Teague Veterans' Center

 Charlie Norwood VAMC

 Cheyenne VA Medical

 Chillicothe VAMC

 Coatesville VAMC

 Dayton VAMC

 Fargo VAMC

 Fayetteville VAMC

 G.V. (Sonny) Montgomery VAMC

 Grand Junction VAMC

 Hampton VAMC

 Hunter Holmes McGuire VAMC

 Iowa City VAMC

 Jack C. Montgomery VAMC

 James E. Van Zandt VAMC

 James J. Peters VAMC

 John J. Pershing VAMC

 Lebanon VAMC

 Louis A. Johnson VAMC

 Louis Stokes VAMC

 Louisville VAMC

 Manchester VAMC

 Marion VAMC

 Martinsburg VAMC



VA Office of Inspector General                                                             37
                                         Prevention of Legionnaires’ Disease in VHA Facilities


 Miami VA HCS
 Michael E. DeBakey VAMC
 New Mexico VA HCS
 Northern Arizona VA HCS
 Northport VAMC
 Orlando VAMC
 Overton Brooks VAMC
 Philadelphia VAMC
 Richard L. Roudebush VAMC
 Robert J. Dole VA Medical and Regional Office Center
 San Francisco VAMC
 Sheridan VAMC
 Spokane VAMC
 St. Cloud VAMC
 Tennessee Valley HCS
 Tomah VAMC
 Tuscaloosa VAMC
 VA Ann Arbor HCS
 VA Black Hills HCS
 VA Boston HCS
 VA Central California HCS
 VA Central Iowa HCS
 VA Central Western Massachusetts Healthcare System
 VA Eastern Colorado HCS
 VA Eastern Kansas HCS, Colmery-O'Neil VAMC
 VA Greater Los Angeles HCS
 VA Gulf Coast Veterans HCS
 VA Hudson Valley HCS
 VA Illiana HCS
 VA Loma Linda HCS
 VA Maine Healthcare System - Togus VAMC
 VA Montana HCS
 VA New Jersey HCS
 VA North Texas HCS
 VA Northern California HCS
 VA Northern Indiana HCS
 VA NY Harbor HCS
 VA Pacific Islands HCS
 VA Roseburg HCS
 VA Sierra Nevada HCS
 W.G. (Bill) Hefner VAMC
 Washington DC VAMC
 West Texas VA HCS


VA Office of Inspector General                                                             38
                                       Prevention of Legionnaires’ Disease in VHA Facilities


 Wilkes-Barre VAMC

 Medical Centers and Health Care Systems that Performed 1 - 100 Respiratory
 Clinical Cultures for LD
 Albany VAMC, Samuel S. Stratton
 Alexandria VAMC
 Asheville VAMC
 Battle Creek VAMC
 Birmingham VAMC
 Cincinnati VAMC
 Clement J. Zablocki VAMC
 Durham VAMC
 Edith Nourse Rogers Memorial Veterans Hospital
 Edward Hines Jr. VA Hospital
 Erie VAMC
 Harry S. Truman Memorial
 Huntington VAMC
 James A. Haley Veterans' Hospital
 Jesse Brown VAMC
 John D. Dingell VAMC
 Kansas City VAMC
 Lexington VAMC
 Memphis VAMC
 Minneapolis VAMC
 Mountain Home VAMC
 NF/SGVHS, Malcom Randall VAMC
 Oklahoma City VAMC
 Oscar G. Johnson VAMC
 Phoenix VA HCS
 Portland VAMC
 Providence VAMC
 Ralph H. Johnson VAMC
 Salem VAMC
 Sioux Falls VAMC
 South Texas Veterans HCS
 Syracuse VAMC
 VA Caribbean HCS
 VA Connecticut HCS
 VA Long Beach HCS
 VA Maryland HCS
 VA Nebraska Western Iowa HCS
 VA Palo Alto HCS
 VA Salt Lake City HCS


VA Office of Inspector General                                                           39
                                          Prevention of Legionnaires’ Disease in VHA Facilities


 VA San Diego HCS

 VA Western New York HCS

 Veterans HCS of the Ozarks

 West Palm Beach VAMC

 White River Junction VAMC

 Wilmington VAMC

 Wm. Jennings Bryan Dorn VAMC



 Medical Centers and Health Care Systems that Performed 101 - 200 Respiratory

 Clinical Cultures for LD


 VA Puget Sound HCS

 William S. Middleton Memorial Veterans Hospital


 Medical Centers and Health Care Systems that Performed 501 - 600 Respiratory

 Clinical Cultures for LD


 St. Louis VAMC

 Medical Centers and Health Care Systems that Performed 601 - 700 Respiratory

 Clinical Cultures for LD


 Southern Arizona VA HCS

 Medical Centers and Health Care Systems that Performed 901 - 1000 Respiratory
 Clinical Cultures for LD

 VA Pittsburgh HCS


Graph 3: Medical Centers and Health Care Systems With Patients Diagnosed with
LD in FY12

Medical Centers and Health Care Systems With One Patient Diagnosed with LD

 Atlanta VAMC

 Bay Pines VA HCS

 Boise VAMC

 Charlie Norwood VAMC, Augusta, GA

 Cincinnati VAMC

 Huntington VAMC

 James E. Van Zandt VAMC, Altoona, PA

 Jesse Brown VAMC




VA Office of Inspector General                                                              40
                                         Prevention of Legionnaires’ Disease in VHA Facilities


 Kansas City VAMC

 Lexington VAMC, Cooper Drive Division, Lexington, KY

 Louis A. Johnson VAMC, Clarksburg, WV

 Louisville VAMC

 Martinsburg VAMC

 Memphis VAMC

 New Mexico VA HCS

 NF/SGVHS, Malcom Randall VAMC, Gainesville, FL

 Oklahoma City VAMC

 Phoenix VA HCS

 South Texas Veterans HCS, San Antonio, TX

 VA Ann Arbor HCS

 VA Eastern Colorado HCS, Denver, CO

 VA Hudson Valley HCS, Castle Point Campus, Castle Point, NY

 VA Nebraska Western Iowa HCS, Omaha, NE

 VA North Texas HCS, Dallas, TX

 VA Roseburg HCS, Roseburg, OR

 VA Salt Lake City HCS, Salt Lake City, UT

 VA Western New York HCS, Buffalo, NY

 William S. Middleton Memorial Veterans Hospital, Madison, WI

 Wm. Jennings Bryan Dorn VAMC, Columbia, SC


Medical Centers and Health Care Systems With Two Patients Diagnosed with LD

 Asheville VAMC

 Central Texas Veterans HCS, Olin E Teague Veterans' Center, Temple, TX

 Clement J. Zablocki VAMC, Milwaukee, WI

 Durham VAMC

 Hunter Holmes McGuire VAMC, Richmond, VA

 Jack C. Montgomery VAMC, Muskogee, OK

 James J. Peters VAMC, Bronx, NY

 Lebanon VAMC

 Mountain Home VAMC

 VA Boston HCS, West Roxbury Campus

 VA Central California HCS, Fresno, CA

 VA Connecticut HCS, West Haven Campus

 VA Gulf Coast Veterans HCS, Biloxi, MS

 VA Northern California HCS, Mather, CA

 West Palm Beach VAMC


Medical Centers and Health Care Systems With Three Patients Diagnosed with LD

 Edward Hines Jr. VA Hospital,



VA Office of Inspector General                                                             41
                                        Prevention of Legionnaires’ Disease in VHA Facilities


 Louis Stokes VAMC, Cleveland, OH

 Tennessee Valley HCS, Nashville, TN

 VA Maryland HCS

 VA San Diego HCS

 Wilmington VAMC


Medical Centers and Health Care Systems With Four Patients Diagnosed with LD

 John D. Dingell VAMC, Detroit, MI

 Minneapolis VAMC

 VA NY Harbor HCS, New York, NY


Medical Centers and Health Care Systems With Five Patients Diagnosed with LD

Washington DC VAMC

Medical Centers and Health Care Systems With Eighteen Patients Diagnosed with
LD

VA Pittsburgh HCS




VA Office of Inspector General                                                            42
                                              Prevention of Legionnaires’ Disease in VHA Facilities
                                                                                      Appendix C

OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Kathleen Shimoda, RN, Team Leader
                         Donald Braman, RN
                         Shirley Carlile, BA
                         Lin Clegg, PhD
                         Marnette Dhooghe, MS
                         Katharine Foster, RN
                         Nathan Fong, CPA, CFE
                         Donna Giroux, RN
                         Kathy Gudgell, RN, JD
                         Jerome Herbers, MD
                         David Morley, MS
                         Victor Rhee, MHS
                         Robert Yang, MD
                         Cynthia Gallegos, Program Support Assistant
                         Natalie Sadow-Colón, MBA, Program Support Assistant




VA Office of Inspector General                                                                  43
                                            Prevention of Legionnaires’ Disease in VHA Facilities
                                                                                    Appendix D

Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
Office of General Counsel

Non-VA Distribution

Senate Committee on Veterans’ Affairs
House Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
Subcommittee on Health, House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget




This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                44
